TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                              Office of Inspections and Evaluations




                       Internal Revenue Service’s Compliance
                          With the Lautenberg Amendment



                                              June 23, 2014

                               Reference Number: 2014-IE-R008




          This report has cleared the Treasury Inspector General for Tax Administration disclosure
            review process and information determined to be restricted from public release has
                                     been redacted from this document.

 Redaction Legend:
 3d=Identifying information - Other Identifying Information of individuals



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                     DEPARTMENT OF THE TREASURY
                                           WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 23, 2014


 MEMORANDUM FOR CHIEF, CRIMINAL INVESTIGATION


 FROM:                        R. David Holmgren
                              Deputy Inspector General for Inspections and Evaluations

 SUBJECT:                     Final Inspection Report – Internal Revenue Service’s Compliance
                              With the Lautenberg Amendment (# IE-14-003)

 This report presents the results of our inspection to determine whether the Internal Revenue
 Service (IRS) has policies and procedures in place to identify law enforcement officers (hereafter
 referred to as special agents) convicted of or who pled no contest to a misdemeanor crime of
 domestic violence which, under U.S. law, prohibits any person from possessing a weapon or
 ammunition.

 Synopsis
 The IRS has adequate controls in place to help ensure compliance with the Lautenberg
 Amendment,1 which prohibits any person convicted of a misdemeanor crime of domestic
 violence from possessing firearms or ammunition, and therefore bars a person with such a
 conviction from employment with the IRS as a special agent. The controls include a
 prescreening process and background investigation for new law enforcement applicants, and
 periodic background investigations for existing special agents. Any discrepancies and
 potentially unfavorable information found as a result of the background investigation are
 reported to the appropriate IRS offices for review and administrative or disciplinary action, as
 deemed necessary.
 We found that 98 percent of all special agents in the Office of Criminal Investigation had current
 background investigations (an investigation initiated or completed within five years). Employees
 in the Personnel Security Office2 researched the approximately 2 percent (51 of 2,490) who did

 1
  18 U.S.C. § 922(g)(9).
 2
  The Personnel Security Office within the IRS Human Capital Office is responsible for administering the IRS’s
 prescreening and background investigation programs.
                                 Internal Revenue Service’s Compliance
                                    With the Lautenberg Amendment



not and determined that the errors were related to special agents who previously held secret or
top secret clearances, or currently have secret clearances. In these cases, the special agents were
not included in a report designed to track the due dates for pending reinvestigations. These
errors affected a relatively small number of IRS special agents and appeared to have little impact
on the overall effectiveness of the controls designed to identify special agents convicted of a
misdemeanor crime of domestic violence.
Additionally, Criminal Investigation has a self-reporting process which requires all special
agents to promptly notify their first-line managers if they have been arrested for any charge,
except for traffic violations that result in fines of less than $150 and that do not result in the loss
of driving privileges. Furthermore, all special agents must specifically report a conviction or
plea of no contest to a charge of domestic violence. The first-line manager should ensure that
information related to the arrest is reported to the Special Agent in Charge and the Treasury
Inspector General for Tax Administration’s (TIGTA) Office of Investigations, which is
responsible for investigating the details of the incidents and providing a report of investigation to
the IRS.
Between October 1, 2008, and December 31, 2013, TIGTA’s Office of Investigations
investigated 13 IRS special agents for allegations that initially appeared to be related to domestic
violence, as defined by Title 18 of the United States Code.3 ** *** **** *** ******* *****
**** ** ******* 3d ******** ******** *** ******** **** *** ***. The Lautenberg
Amendment did not apply to the other 12 cases because the allegations did not result in a
conviction or plea of no contest to domestic violence.

Response
In response to our memorandum, IRS management agreed with the observations of the report.
Management’s complete response to the memorandum is included in Appendix IV.
Please contact me or Kevin P. Riley, Director, Office of Inspections and Evaluations, if you have
questions.




3
    18 U.S.C. § 921(a)(33).
                                                                                                      2
                                           Internal Revenue Service’s Compliance
                                              With the Lautenberg Amendment




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Procedures to Identify Law Enforcement Officers Convicted of a
          Misdemeanor Crime of Domestic Violence Are in Place ............................. Page 2
          Allegations Related to Domestic Violence ................................................... Page 4

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 6
          Appendix II – Major Contributors to This Report ........................................ Page 7
          Appendix III – Report Distribution List ....................................................... Page 8
          Appendix IV – Management’s Response to the Draft Report ...................... Page 9
           Internal Revenue Service’s Compliance
              With the Lautenberg Amendment




               Abbreviations

ALERTS   Automated Labor and Employee Relations Tracking System
CI       Criminal Investigation
HCO      Human Capital Office
IRM      Internal Revenue Manual
IRS      Internal Revenue Service
OPM      Office of Personnel Management
PARIS    Performance and Results Information System
TIGTA    Treasury Inspector General for Tax Administration
                                      Internal Revenue Service’s Compliance
                                         With the Lautenberg Amendment




                                              Background

The Lautenberg Amendment, codified as 18 U.S.C. Section 922(g)(9), prohibits any person
convicted of a misdemeanor crime of domestic violence from possessing firearms or
ammunition, even in the line of duty. This prohibition applies to law enforcement personnel
without exception.1 A crime identified under this statute is an immediate disqualifier to Federal
law enforcement applicants and a terminating action to those presently employed as special
agents. The prohibition applies to persons convicted of such misdemeanors at any time, even if
the conviction occurred prior to the law’s effective date, September 30, 1996. The misdemeanor
crime of domestic violence must first be an offense that is a misdemeanor under Federal, State,
or Tribal law. Additionally, the crime must involve the use or attempted use of physical force, or
the threatened use of a deadly weapon, committed by:
          a current or former spouse, parent, or guardian of the victim,
          a person with whom the victim shares a child in common,
          a person who is cohabiting with or has cohabited with the victim as a spouse, parent, or
           guardian, or
          a person similarly situated to a spouse, parent, or guardian of the victim.2
This review was performed at the Internal Revenue Service (IRS) Office of Criminal
Investigation (CI) and the Human Capital Office (HCO) in Washington, D.C., during the period
December 2013 through April 2014. We conducted this inspection in accordance with the
Council of the Inspectors General for Integrity and Efficiency Quality Standards for Inspections.
Detailed information on our objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




1
    United States Attorneys’ Manual, Title 9, Criminal Resource Manual, Section 1117 (July 2013).
2
    18 U.S.C. § 921(a)(33).
                                                                                                    Page 1
                                      Internal Revenue Service’s Compliance
                                         With the Lautenberg Amendment




                                        Results of Review

Procedures to Identify Law Enforcement Officers Convicted of a
Misdemeanor Crime of Domestic Violence Are in Place
The IRS has adequate controls in place to identify special agents who have been convicted of a
misdemeanor offense of domestic violence, an offense which prohibits such a person from
possessing a weapon or ammunition. The controls include a prescreening process and
background investigation for new applicants and periodic background investigations for existing
special agents. Additionally, CI has a self-reporting process that requires its special agents to
report any and all arrests, except for traffic violations that result in fines of less than $150 and
that do not result in the loss of driving privileges. As it relates specifically to the Lautenberg
Amendment, CI requires its special agents to notify their first-line manager if they were
convicted of or pled no contest to a domestic violence charge.3 These controls are documented
in the IRS Internal Revenue Manual (IRM).4

Prescreening and background investigations
The HCO prescreens all IRS applicants to determine initial suitability and eligibility. As part of
the prescreening process, the HCO submits each applicant’s fingerprints to the Office of Personnel
Management (OPM), which searches the Federal Bureau of Investigation Identification Division’s
criminal history records. The OPM reports the results of the fingerprint check to the IRS HCO,
and the HCO must review the results to determine whether the applicant is suitable for
employment with the IRS. The IRS specifically screens applicants for special agent positions for
offenses related to domestic violence. Applicants may not report for duty and be allowed
unescorted access to IRS facilities until this process has been favorably completed.
The IRS classifies all law enforcement positions as high-risk public trust positions; therefore, all
new special agents must have a background investigation, and current special agents must have a
periodic background reinvestigation every five years.5 An IRS special agent may also have a
security clearance that requires a background investigation every five years (top secret clearance)
or 10 years (secret clearance).


3
  Internal Revenue Manual 9.11.4.4 (Aug. 5, 2005).
4
  The IRM is the IRS’s primary official source of instructions to staff related to the administration and operations of
the IRS. It contains the directions employees need to carry out their operational responsibilities.
5
  The IRS can choose to waive the requirement for a background investigation if the applicant has a current
suitability or security investigation that was favorably adjudicated within the past five years, the investigation meets
or exceeds the requirements for the position, and there has been no break in service greater than 24 months.
                                                                                                                Page 2
                                      Internal Revenue Service’s Compliance
                                         With the Lautenberg Amendment



Within the HCO, the Personnel Security Office initiates and tracks the status of the background
investigations, and investigators from the OPM conduct the investigations.6 Any discrepancies
and potentially unfavorable information found as a result of the background investigation is
reported to the Office of Labor Relations within the HCO for adjudication7 and subsequently to
CI for review and administrative or disciplinary action, if deemed necessary.
Information provided by the Personnel Security Office revealed that about 98 percent of all
special agents had current background investigations. However, approximately 2 percent
(51 of 2,490) of special agents did not have current background investigations because reports
used to identify special agents that require background investigations did not include special
agents who previously held secret or top secret clearances or currently have secret clearances.8
In most cases, CI managers cancelled the special agents’ security clearances but did not update
the special agents’ position description in the personnel system (HR Connect) to high-risk public
trust.
Employees in the Personnel Security Office indicated that they are exploring options to mitigate
the problem, which may include using a different source to track the status of pending
background investigations and/or enhancing the reporting capabilities of the current tracking
systems. These errors affected a relatively small number of IRS special agents and appeared to
have little impact on the overall effectiveness of the controls designed to identify special agents
convicted of a misdemeanor crime of domestic violence.

Self-reporting process
CI has a self-reporting process that requires all special agents to promptly notify their first-line
manager, whether verbally or in writing, of any arrest no later than the next scheduled workday.9
Special agents who fail to report an arrest to CI management could be subject to disciplinary
action. Additionally, a special agent who is convicted of or pleads no contest to a charge of
domestic violence must notify his or her first-line manager. Following the initial notification by
the special agent, the first-line supervisor should notify his or her Special Agent in Charge (or
equivalent). The first-line manager should also ensure that information related to the arrest is
reported to the Treasury Inspector General for Tax Administration (TIGTA) Office of
Investigations, which is responsible for investigating all allegations of misconduct related to CI
special agents.


6
  IRM 10.23.3.4 (Nov. 15, 2011).
7
  Adjudication is an examination of a person’s character or conduct over time resulting in a favorable or unfavorable
determination of their employment suitability; eligibility for access to classified information, materials, or areas; or
retention in Federal employment.
8
  Reports from the Security Entry and Tracking System are used to identify special agents who require background
investigations related to a high-risk public trust position. This report excludes special agents who have a security
clearance.
9
  IRM 9.11.4.4 (Aug. 5, 2005).
                                                                                                                Page 3
                                     Internal Revenue Service’s Compliance
                                        With the Lautenberg Amendment



In summary, each IRS special agent should have a background investigation approximately
every five years, which should disclose an arrest or conviction related to misdemeanor domestic
violence. At any point during this five-year period, a special agent is expected to report an arrest
or conviction to his or her first-line manager. Figure 1 illustrates the control processes.
                                Figure 1: Illustration of CI’s Control




               Source: TIGTA analysis of IRS procedures and interviews with IRS HCO personnel.

Allegations Related to Domestic Violence
The TIGTA Office of Investigations records information related to its investigations in the
Performance and Results Information System (PARIS)10 and submits a report of investigation to
the IRS for each investigation related to an IRS employee. Upon receipt of the TIGTA report of
investigation, the IRS Labor Relations Office should record all allegations of misconduct and
any supporting details in the IRS’s Automated Labor and Employee Relations Tracking System
(ALERTS).11
We reviewed PARIS and ALERTS records from October 2008 through January 2014 for
employee misconduct allegations related to IRS special agents and identified 13 cases where
allegations in the case appeared to be related to domestic violence, as defined by Title 18 of the
United States Code.12 In each case, the Office of Investigations gathered the facts and
circumstances related to the allegation and subsequently submitted a report of investigation to
the IRS for administrative adjudication. The TIGTA reports of investigation do not include any

10
   The PARIS is the primary management information system for the TIGTA Office of Investigations.
11
   The ALERTS is an IRS database which allows users to establish, track, and maintain employee relations cases
and to establish and track Labor Relations activities; Unfair Labor Practice charges; and events for negotiation
processes, grievances, and arbitration proceedings.
12
   18 U.S.C. § 921(a)(33).
                                                                                                            Page 4
                                Internal Revenue Service’s Compliance
                                   With the Lautenberg Amendment



recommended action that the IRS should consider taking in regard to the facts contained in the
investigative report.
Of the 13 cases investigated by the Office of Investigations during the period of our review, ***
******* ***** **** ** ******* ** ******** ****3d** *** ******** ****** *****
********** ** *** ***. This was the only case where the Lautenberg Amendment was
applicable.
The Lautenberg Amendment was not applicable in the remaining 12 cases, because the special
agents involved were not convicted of the misdemeanor crime of domestic violence. ** ***
***** * ******* ***** **** ****** ** ** ******* ******** ***** *** **********
********** *** *** ***** ******** ************ ** *** **** ****
******************3d***** *** ********* *******. *** ********** ********* *** ***
********** ******** ** **** ********** ************* * ******** ************ ** ***
********** * **********.13 *** ******* ***** *** ******* ** ***** ** **** **** *****
*** ******* ********* *** ***3d***** ******* **** *** *** ****** *** ******* *****
** *** ******** ************ **** ***. In the other allegations, the special agents pled
guilty to an offense other than domestic violence, the case was dismissed or the charges were
dropped, or charges were not filed. Figure 2 documents the resolution of all 13 allegations that
appeared to be related to domestic violence.
                       Figure 2: Summary of Result of Allegations

                                        Result                             Count
                  **** ** ** ******* 3d ******** ********                          3d
                  ******** *********3d* ******* ** *                               3d
                  ****** ****
                  Plea Related to Other Charges                                     3
                  Charges Dismissed or Dropped                                      4
                  No Charges Filed                                                  4
                  Total Cases                                                      13
                 Source: TIGTA analysis of information from the PARIS and the ALERTS,
                 and interviews with IRS HCO and TIGTA Office of Investigations
                 personnel.




13
  ** **** ************* *** ***** **** ******* *** ****** **** ** ***3d****** ******* ** ***** *** **
*** ***** *** *** ******** ************.
                                                                                              Page 5
                                      Internal Revenue Service’s Compliance
                                         With the Lautenberg Amendment



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

The objective of our review was to determine whether the IRS has policies and procedures in
place to identify special agents convicted of or who pled no contest to a misdemeanor crime of
domestic violence which, under U.S. law,1 prohibits any person from possessing a weapon or
ammunition. To accomplish this objective, we:
I.       Documented and assessed the policies and procedures related to identifying special
         agents convicted of or who pled no contest to a misdemeanor crime of domestic violence.
         A. Determined whether Special Agents in Charge, or other CI managers, are required to
            report all allegations of domestic violence by special agents to CI leadership and
            other IRS offices.
         B. Determined whether the IRS maintains a database of all allegations of domestic
            violence by special agents at the local and or headquarters level.
II.      Determined whether the IRS actively and regularly screens special agents to determine
         whether any special agent has been convicted of or pled no contest to the qualifying
         misdemeanor crime of domestic violence and did not self-report as required by the IRM.2
III.     Determined whether the IRS screens law enforcement applicants to determine whether
         applicants have been recently convicted of or pled no contest to the qualifying
         misdemeanor crime of domestic violence.




1
  18 U.S.C. § 922(g)(9).
2
  IRM 9.11.4.4 (Aug. 5, 2005). The IRM is the IRS’s primary official source of instructions to staff related to the
administration and operations of the IRS. It contains the directions employees need to carry out their operational
responsibilities.
                                                                                                              Page 6
                              Internal Revenue Service’s Compliance
                                 With the Lautenberg Amendment



                                                                      Appendix II

                 Major Contributors to This Report

Kevin P. Riley, Director, Inspections & Evaluations
James A. Douglas, Supervisory Evaluator
John L. da Cruz, Lead Program Analyst




                                                                            Page 7
                             Internal Revenue Service’s Compliance
                                With the Lautenberg Amendment



                                                                     Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
IRS Human Capital Officer OS:HC
Deputy Human Capital Officer OS:HC
Deputy Chief, Criminal Investigation SE:CI
Acting Director, Workforce Relations Division OS:HC:R
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC




                                                                            Page 8
           Internal Revenue Service’s Compliance
              With the Lautenberg Amendment



                                                   Appendix IV

Management’s Response to the Draft Report




                                                         Page 9
